HHS/OIG-Audit--"Review of the Centers for Disease Control and Prevention's Resolution of Unaccounted for Property, (A-15-94-00020)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Centers for Disease Control and Prevention's Resolution
of Unaccounted for Property ," (A-15-94-00020)
May 10, 1995
Complete Text of Report is available in PDF format
(3.6 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of OIG's audit of the effectiveness
of CDC in resolving issues of missing property and the adequacy of CDC's FY
1993 review of management controls over property. Our audit found that items
unaccounted for during CDC's FY 1992 inventory were unaccounted for in the FY
1993 inventory.
We recommended that CDC strengthen management controls over property by: (1)
promptly resolving missing property; (2) performing reconciliations as required
by HHS; (3) separating key duties within CDC property management functions to
maintain an adequate system of checks and balances; (4) conducting a management
control review of property management which fully complies with standards; and
(5) establishing and promoting the use of a hotline for the anonymous referral
of information on property at risk. The Public Health Service generally concurred
with our recommendations.